                                                                NATIONAL SCIENCE FOUNDATION
                                                                 OFFICE OF INSPECTOR GENERAL
                                                                   OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

11   Case Number: I05110073                                                                                     Page 1 of 1



            An individual1reported that an institution2with cost-sharing obligations under an NSF award3
            (a) failed to provide the full amount of the promised faculty cost sharing; (b) exaggerated the
            results achieved by the faculty who did support the project; (c) solicited NSF funding for student
            stipends but did not use the awarded funds for those purposes; (d) used improper funding sources
            to pay for cost sharing expenses; and (e) coordinated with the former NSF program officer4 on
            selection of site reviewers.

            The university conceded that it had devoted less full-time faculty to the project a's cost sharing
            than originally planned, but showed that other faculty devoted partial effort to the project, and
 I
            that it made other cost sharing contributions that fulfilled its overall cost sharing commitments.
            The current NSF program officerSexpressed satisfaction with the university's performance of the
            award and its cost sharing contributions. The program officer also acknowledged that awardees
            may "reprogram" funds within award budgets: such that the ultimate use of the student-stipend
            funding for other legitimate award expenses was not improper (particularly where the university
            documented student support at other times during the award).

            We could not.substantiate either the source or amounts of the alleged improper funding of cost
            sharing; the information provided by the university validated the funding sources, and even if it
            had not; the amounts that could have been problematic were much smaller than alleged. We
            likewise could not substantiate any improper coordination between the NSF program officer and
 I
            the principal invkstigator for the purpose of selection of biased site reviewer^.^




                This erson has been granted confidentiality and will not be identified in this report.



            C
            4
            5

             Award and Administration Guide (NSF 08- 1, January 2008), sec. 1I.C.
             We note that a similar allegation as to the same program officer and award had been investigated earlier in the
            performance period without substantiation (M98020 119).


I'
 NSF OIG F o ~ m2 ( 1 1/02)
